CERTIFICATE OF SERVICE
No. 20-1089
CHEVRON CORPORATION, et al.,
Petitioners,
v.
CITY OF OAKLAND, et al.,
Respondents.
I, Peter D. Keisler, do hereby certify that, on this twenty-fourth day of May,
2021, I caused a copy and an electronic copy of the Petitioners’ Reply Brief in the
foregoing case to be served by first class mail, postage prepaid, and by email, on the
following parties:
MICHAEL RUBIN
CORINNE JOHNSON
BARBARA J. CHISHOLM
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421-7151
mrubin@altber.com
cjohnson@altshulerberzon.com
bchisholm@altshulerberzon.com

VICTOR M. SHER, Counsel of Record
MATTHEW K. EDLING
MICHAEL BURGER
MARTIN D. QUIÑONES
KATIE H. JONES
QUENTIN C. KARPILOW
SHER EDLING, LLP
100 Montgomery Street, Suite 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com
matt@sheredling.com
michael@sheredling.com
marty@sheredling.com
katie@sheredling.com
quentin@sheredling.com

Counsel for the City of Oakland, a Municipal Corporation, the People of the State of
California, acting by and through the Oakland City Attorney, the City and County
of San Francisco, a Municipal Corporation, and the People of the State of
California, acting by and through the San Francisco City Attorney Dennis J.
Herrera

BARBARA J. PARKER, City Attorney
MARIA BEE, Special Counsel
ZOE M. SAVITSKY, Supervising Deputy
MALIA MCPHERSON, Deputy
OAKLAND OFFICE OF THE CITY ATTORNEY
One Frank Ogawa Plaza, 6th Floor
Oakland, CA 94612
(510) 238-3601
bparker@oaklandcityattorney.org
mbee@oaklandcityattorney.org
zsavitsky@oaklandcityattorney.org
mmcpherson@oaklandcityattorney.org
Counsel for the City of Oakland, a
Municipal Corporation, and the People
of the State of California, acting by and
through the Oakland City Attorney

DENNIS J. HERRERA, City Attorney
RONALD P. FLYNN, Chief Deputy
YVONNE R. MERÉ, Chief, Complex Litig.
MATTHEW D. GOLDBERG, Deputy
ROBB W. KAPLA, Deputy
SAN FRANCISCO CITY ATTORNEY’S OFFICE
City Hall, Room 234
1 Dr. Carlton B. Goodlett Place
San Francisco, CA 94102
(415) 554-4700
cityattorney@sfcityatty.org
ronald.flynn@sfcityatty.org
yvonne.mere@sfcityatty.org
matthew.goldberg@sfcityatty.org
robb.kapla@sfcityatty.org
Counsel for the City and County of San
Francisco, a Municipal Corporation, and
the People of the State of California,
acting by and through the San Francisco
City Attorney Dennis J. Herrera

/s/ Peter D. Keisler
PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

